<html>
<title> - SEA CHANGE: IMPACTS OF CLIMATE CHANGE ON OUR OCEANS AND COASTS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                 SEA CHANGE: IMPACTS OF CLIMATE CHANGE
                        ON OUR OCEANS AND COASTS

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 27, 2019

                               __________

                            Serial No. 116-3

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


       Available via the World Wide Web: http://science.house.gov
       
       
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-233PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="87e0f7e8c7e4f2f4f3efe2ebf7a9e4e8eaa9">[email&#160;protected]</a>                         
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                NEAL DUNN, Florida
MIKIE SHERRILL, New Jersey           RALPH NORMAN, South Carolina
BRAD SHERMAN, California             MICHAEL CLOUD, Texas
STEVE COHEN, Tennessee               TROY BALDERSON, Ohio
JERRY McNERNEY, California           PETE OLSON, Texas
ED PERLMUTTER, Colorado              ANTHONY GONZALEZ, Ohio
PAUL TONKO, New York                 MICHAEL WALTZ, Florida
BILL FOSTER, Illinois                JIM BAIRD, Indiana
DON BEYER, Virginia                  VACANCY
CHARLIE CRIST, Florida               VACANCY
SEAN CASTEN, Illinois
KATIE HILL, California
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
                                 ------                                

                      Subcommittee on Environment

                HON. LIZZIE FLETCHER, Texas, Chairwoman
SUZANNE BONAMICI, Oregon             ROGER MARSHALL, Kansas, Ranking 
CONOR LAMB, Pennsylvania                 Member
PAUL TONKO, New York                 BRIAN BABIN, Texas
CHARLIE CRIST, Florida               ANTHONY GONZALEZ, Ohio
SEAN CASTEN, Illinois                JIM BAIRD, Indiana
BEN McADAMS, Utah                    VACANCY
DON BEYER, Virginia
                         
                         
                         C  O  N  T  E  N  T  S

                           February 27, 2019

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Lizzie Fletcher, Chairwoman, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    10
    Written Statement............................................    12

Statement by Representative Roger Marshall, Ranking Member, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    14
    Written Statement............................................    16

Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    18
    Written Statement............................................    20

                               Witnesses:

Dr. Sarah Cooley, Director, Ocean Acidification Program, Ocean 
  Conservancy
    Oral Statement...............................................    23
    Written Statement............................................    25

Dr. Radley Horton, Lamont Associate Research Professor, Lamont-
  Doherty Earth Observatory, Columbia University Earth Institute
    Oral Statement...............................................    41
    Written Statement............................................    43

Dr. Thomas K. Frazer, Professor and Director, School of Natural 
  Resources and Environment, University of Florida
    Oral Statement...............................................    51
    Written Statement............................................    53

Ms. Margaret A. Pilaro, Executive Director, Pacific Coast 
  Shellfish Growers Association
    Oral Statement...............................................    60
    Written Statement............................................    62

Discussion.......................................................    72

             Appendix I: Answers to Post-Hearing Questions

Dr. Sarah Cooley, Director, Ocean Acidification Program, Ocean 
  Conservancy....................................................    92

Ms. Margaret A. Pilaro, Executive Director, Pacific Coast 
  Shellfish Growers Association..................................    96

            Appendix II: Additional Material for the Record

Letters submitted by Representative Suzanne Bonamici, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    98

Letter submitted by Representative Bill Posey, Subcommittee on 
  Environment, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................   111

 
                 SEA CHANGE: IMPACTS OF CLIMATE CHANGE
                        ON OUR OCEANS AND COASTS

                              ----------                              


                      WEDNESDAY, FEBRUARY 27, 2019

                  House of Representatives,
                       Subcommittee on Environment,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to notice, at 10:03 a.m., in 
room 2318 of the Rayburn House Office Building, Hon. Lizzie 
Fletcher [Chairwoman of the Subcommittee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Fletcher. The hearing will come to order.
    Without objection, the Chair is authorized to declare a 
recess at any time.
    Good morning. Welcome to the Environment Subcommittee's 
first hearing of the 116th Congress. This hearing is entitled, 
``Sea Change: Impacts of Climate Change on Our Oceans and 
Coasts.'' Building on the momentum of our first full Committee 
hearing on the State of Climate Science, today we'll be 
discussing how climate change is impacting our oceans and 
coasts. This is an important topic, and I want to convey a few 
things as we begin. First, every American should care about 
changes to the oceans, even those who do not live along the 
coasts. Second, we are already seeing visible changes and 
paying a very real price. Climate change impacts are here, 
happening now, not far-off events for future generations to 
address. And those impacts can be seen in our oceans and 
coasts.
    According to NOAA (National Oceanic and Atmospheric 
Administration), nearly half of Americans live along our 95,471 
miles of coastline, which span three oceans, the Gulf of 
Mexico, the Great Lakes, and the Pacific and Caribbean islands. 
And more people are moving to the coasts each year. The Fourth 
National Climate Assessment (NCA) found that coastal zones 
employ 134 million people and contribute a staggering $16.7 
trillion to our national gross domestic product. And for the 
other half of Americans who don't live on the coast, the oceans 
and coasts impact them directly and indirectly, too, providing 
economic, recreational, and cultural opportunities. There's a 
lot to lose--not only for the environment, but for our thriving 
economy and communities--by failing to address climate change 
impacts on our oceans and coasts.
    As science has established, climate change is real, it's 
happening, and it's caused primarily by human activity. NOAA 
just reported last month that 2018 was the fourth-hottest year 
on record. Many people don't realize that global warming would 
be significantly worse without the buffering effects of the 
oceans. Oceans act like a big sponge, soaking up much of the 
excess carbon dioxide and heat in the atmosphere. In fact, the 
International Union for Conservation of Nature found that if 
the excess heat trapped by the oceans between 1955 and 2010 
were released back into the lower atmosphere, the temperature 
would warm up nearly 97 +Fahrenheit. The oceans are protecting 
us from climate change's impacts by buffering against this 
increase in temperature, but this buffering is causing major 
changes to the oceans.
    Increased carbon emissions alter the oceans in three main 
ways: Making them warmer, more acidic, and less oxygenated. 
These changes are occurring at unprecedented rates. For 
example, according to research published in the journal 
Science, the chemistry of the oceans is changing faster now 
than in the last 300 million years.
    Climate change has now claimed its first mammal in a way 
directly related to today's hearing. Just last week, the 
Australian Government reported that the Bramble Cay mosaic-
tailed rat, a small rodent, was driven to extinction. Their 
island home became inundated with saltwater from rising sea 
levels, causing their food and shelter to disappear. The 
threats of sea-level rise, ocean warming, acidification, and 
deoxygenation are far-reaching, and many marine species face 
risk of extinction as these changes occur faster than most 
species can adapt.
    In Texas' 7th Congressional District, which I have the 
privilege to represent, we're seeing some of the earliest 
effects of coastal climate change, and we stand to face great 
risks as the fourth-largest city and biggest energy exporter in 
the United States. At just 50 feet above sea level and as one 
of the flattest cities in America, Houston already experiences 
heavy rainfall, and our region faces the threat of storm surge, 
increasing the risk and the reality of flooding. Hurricane 
Harvey set the record for total rainfall from a tropical 
cyclone in the continental United States. Climate change is 
intensifying storms--making so called 1,000-year storms like 
Harvey more frequent--and causing sea levels to rise in 
Galveston Bay. According to the Fourth National Climate 
Assessment published in November, sea-level rise along the 
Texas Gulf Coast is twice as large as the global average. 
Experts are warning cities that cities like ours don't have 
that much time to adapt.
    That's why I am glad we're here today to hear from our 
distinguished panel. I would like to welcome our witnesses this 
morning. Some of our scientific witnesses have been involved in 
writing and reviewing major climate change reports--the 
National Climate Assessment and the IPCC (Intergovernmental 
Panel on Climate Change) Assessment Report--and are here to 
summarize some of the major findings on ocean and coastal 
changes. We will also hear from a representative of a coastal 
industry whose experience of these issues is instructive for us 
all.
    I was encouraged in our first Committee hearing to hear 
interest from Members on both sides of the aisle toward 
developing solutions and technologies to address climate 
change. Adaptation and mitigation are very important. They're 
important parts of this conversation, and with today's hearing, 
we're laying the foundation for future discussions that will 
lead us to legislative solutions.
    [The prepared statement of Chairwoman Fletcher follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fletcher. The Chair now recognizes Mr. Marshall 
for an opening statement.
    Mr. Marshall. Thank you so much, Chairwoman Fletcher, for 
holding this hearing today to discuss a nuanced and significant 
issue. First off, I want to congratulate you on your 
appointment to Chair the Environment Subcommittee. I look 
forward to working with you.
    In this Committee, we may not always agree on everything, 
but I hope that we can agree on objectives and goals. Our 
objectives should be thoroughly--be to thoughtfully listen to 
the science and theories surrounding these topics. And our 
goal, at least in my opinion, should be to leave this 
environment of this country and the world better than we found 
it for our children, our grandchildren, and future generations 
so that we can all flourish.
    I was just reminded this past week. I was--I got to help my 
grandson catch his first fish in the ocean. One of my loves is 
fishing and tasting the outdoors, so it was great to be able to 
do that. But I have to be honest; the closest thing we have to 
oceans in the State of Kansas are amber waves of grain. So this 
is a unique opportunity for me to learn about the relationship 
between climate and the ocean. I'm looking forward to hearing 
from our witnesses today and hope we can find a way to talk 
constructively about these issues and, more importantly, about 
potential solutions.
    Oceans cover more than 70 percent of the Earth and contain 
more than 90 percent of life on our planet. Oceans, more 
specifically phytoplankton, produce most of the oxygen that we 
breathe and absorb most of the carbon dioxide from the Earth's 
atmosphere, creating a constant cycle of oxygen and 
CO<INF>2</INF>.
    I have to tell you I was giddy when I got to read some of 
your reports and go back to some of my biochemistry days. And 
it just brought me back to my college days in so many ways and 
just really, really enjoyed the papers. I know Congressmen 
aren't supposed to be excited about science, but I really am.
    Like plant and animal life on land, marine life and oceans 
themselves evolve. The chemistry and ecology change and life 
adapts. It's been happening for millions of years, but 
unfortunately, scientific evidence suggests that the pace of 
change, like the Chairwoman said, has increased over the last 
century, adding more stress to our complex marine ecosystems.
    Some of this stress is the result of increased levels of 
carbon dioxide and other greenhouse gases in the atmosphere 
that are absorbed by the ocean. The result is a change in the 
chemistry of the oceans in which researchers have noted 
increased water temperature, lower pH levels, and decreased 
oxygen levels in certain areas.
    It's essential that we gain a better understanding of ocean 
chemistry, effectiveness of potential solutions, and mitigation 
of negative impacts. For instance, some species are proving 
more resilient and adaptable to changing conditions. One of our 
goals should be to better understand this resiliency and find 
ways to translate this knowledge to broader ecosystem 
sustainability.
    One of our witnesses, Dr. Tom Frazer, is the Director of 
the University of Florida's School of Natural Resources and 
Environment. He will go into detail on his research to help us 
all better understand the impacts and changes in aquatic 
ecosystems, as well as discuss some of the potential solutions 
to maximize environmental and economic value of our oceans.
    I believe advancing technology is the best path forward. As 
we speak, industry and governments around the world are 
examining carbon removal and carbon storage technology. There 
are some big ideas out there from direct air capture to 
genetically modified phytoplankton and giant kelp farms, which 
I'm especially interested to hear about, in the ocean that can 
absorb carbon dioxide. We learned during our hearing 2 weeks 
ago that moving entirely to renewables is not realistic or 
sustainable, so we must consider solutions like these that can 
help reduce or remove emissions generated around the globe.
    Researching, developing, and deploying these technologies 
will take a little time, but the payoff will be significant. 
Innovating our way to solutions has been a trademark of the 
American spirit since our country's inception. For example, in 
my practice as an obstetrician I have seen how private 
innovation and response to market demand have done more to 
improve and drive down the cost of healthcare than any law or 
regulation written here in D.C.
    Just look at the evolution of medical imaging. Forty years 
ago, MRI machines and CAT scanners were just hitting the 
market. But now we have high-resolution, microscopic cameras 
that reduce the need for invasive surgeries and provide us a 
window into human health in ways that we never thought or I 
dreamed possible.
    Basic research, industry innovation, and thriving 
marketplace are what brought these technologies and others like 
it into our lives, not government regulation. We need to 
prioritize instruments that target the most impactful areas of 
research and provide specific steps for resiliency planning. 
America must lead the way and partner with industry to develop 
innovative technologies and solutions to the problems discussed 
here today.
    I thank our witnesses for being here today, and I yield the 
balance of my time. Thank you.
    [The prepared statement of Mr. Marshall follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fletcher. Thank you, Mr. Marshall.
    The Chair now recognizes the Chairwoman of the full 
Committee, Ms. Johnson, for an opening statement.
    Chairwoman Johnson. Thank you very much, Ms. Fletcher, and 
congratulations on your first Subcommittee meeting. And let me 
say, too, let me welcome the witnesses but also welcome to our 
former Subcommittee Ranking Member Ms. Bonamici, who has 
prepared legislation in this area. I'm pleased to join you this 
morning.
    Two weeks ago we had our first climate change-related 
hearing on the ``State of Climate Science and Why It Matters.'' 
That fruitful hearing was a broad overview of the myriad of 
ways climate change is affecting multiple aspects of the 
environment and our society. Today, we continue in that same 
vein and look specifically at the science and how the 
anthropogenic carbon emissions are affecting our oceans and 
coasts.
    NOAA has found that almost 40 percent of the U.S. 
population lives in coastal counties. I'm not one of those. We 
have manmade lakes for drinking water where I live in north 
Texas. But we do have a very large coastal area at the other 
end of the State. From the white sand beaches of Florida to the 
rocky shorelines of the Pacific Northwest, our coasts are not 
only iconic, popular tourist destinations, but also economic 
powerhouses of the Nation. Coastal counties contribute $6.6 
trillion to our economy. Given the clear societal and economic 
importance of our oceans and coastal communities, it is 
imperative that we work to protect these resources.
    But our coastal communities are already seeing impacts of 
climate change. Ocean warming due to the anthropogenic carbon 
dioxide emissions is responsible for rising sea levels, melting 
sea ice, and lower oxygen concentrations in our seawater. 
Warmer ocean temperatures also fuel stronger storms, which can 
lead to additional coastal damage from hurricanes. The findings 
from the Fourth National Climate Assessment were very clear: 
Cutting our emissions of greenhouse gases will significantly 
and quickly help stave off the most severe potential impacts of 
climate change. Laying the foundation of the current state of 
science on our oceans and coasts in this hearing will help us 
better understand what we can expect to see if we do not act to 
mitigate our carbon emissions now.
    During the first hearing, many of my colleagues on both 
sides of the aisle were excited to discuss potential solutions 
to the climate challenges that many of us are starting to face 
in our districts. However, in order to come up with robust 
solutions to the rapid changes we are seeing in our oceans and 
coastal communities, it is critical that we understand what is 
driving these changes. Successful mitigation and adaptation 
solutions will be based on robust science.
    I'm looking forward to having another productive hearing on 
climate change today, and I'm especially interested in 
receiving testimony from our expert scientific witnesses on how 
climate change is affecting sea-level rise, the physical and 
chemical processes within our oceans, and marine ecosystems. I 
am also glad to have a representative from the Pacific Coast 
Shellfish Growers Association to speak about concrete evidence 
of climate change impacts on their livelihood, and how they 
utilized science to develop solutions to this pressing issue.
    The diverse perspectives provided by our witnesses will 
help guide the Members of this Committee as we work to develop 
bipartisan policy solutions to address climate change and ocean 
acidification based on sound science and ensure there is 
significant Federal funding for climate research.
    I thank you, Madam Chair, and yield back.
    [The prepared statement of Chairwoman Johnson follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Fletcher. Thank you, Chairwoman Johnson.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    At this time, I'd like to introduce our witnesses. Our 
first witness is Dr. Sarah Cooley, the Director of the Ocean 
Acidification Program at the Ocean Conservancy. Dr. Cooley is 
an expert on the impacts of ocean climate change on human 
communities and her research spans ocean climate--and her 
research spans ocean carbon cycling, science communication, and 
science-based policy development. Dr. Cooley was a lead author 
on the Second State of the Carbon Cycle Report and review 
editor on volume 2 of the Fourth National Climate Assessment, 
both released last November. She's also a lead author on the 
Sixth Assessment Report of the Intergovernmental Panel on 
Climate Change, or IPCC, which will be complete in 2021. Dr. 
Cooley received her Ph.D. in marine science from the University 
of Georgia.
    Our second witness is Dr. Radley Horton, who is Lamont 
Associate Professor--Research Professor at Columbia 
University's Lamont-Doherty Earth Observatory. His research 
focuses on climate extremes, sea-level rise, tail risks, 
climate impacts, sea-level rise, and adaptation. Dr. Horton was 
a convening lead author for the Third National Climate 
Assessment. He currently co-chairs Columbia University's 
Climate Adaptation Initiative and is Principal Investigator for 
the NOAA Regional Integrated Sciences and Assessments-funded 
Consortium for Climate Risk in the Urban Northeast. He received 
his Ph.D. in earth and environmental sciences from Columbia 
University.
    Our third witness is Dr. Thomas K. Frazer, who is Professor 
and Director of the School of Natural Resources and Environment 
at the University of Florida. His research examines water 
quantity and quality, nutrient dynamics, biogeochemical 
processes, fish population dynamics, food web interactions, and 
ecological restoration of degraded ecosystems. He's conducted 
field research in both freshwater and marine systems around the 
globe and is intimately familiar with environmental and 
resource challenges, including coral bleaching, ocean 
acidification, and sea-level rise. He received his Ph.D. in 
biological sciences from the University of California Santa 
Barbara.
    Our final witness is Ms. Margaret Pilaro, who has served as 
the Executive Director of the Pacific Coast Shellfish Growers 
Association, or PCSGA, since 2010. PCSGA represents over 100 
shellfish companies who sustainably produce mussels, oysters, 
clams, and geoduck in the States of Alaska, Washington, Oregon, 
California, and Hawaii. Prior to her current role, she worked 
for the Washington State Department of Natural Resources for 12 
years and as a municipal planner in Rhode Island where she 
dealt with storm and wastewater issues, restoring the fishery, 
and harbor management. Ms. Pilaro received an M.A. in marine 
affairs from the University of Rhode Island. Welcome to all of 
you.
    As our witnesses should know, you will each have 5 minutes 
for your spoken testimony. Your written testimony will be 
included in the record for the hearing. When you all have 
completed your spoken testimony, we will begin with questions. 
Each Member will have 5 minutes to question the panel. Thank 
you so much for being here. We'll begin this morning with Dr. 
Cooley.

                 TESTIMONY OF DR. SARAH COOLEY,

             DIRECTOR, OCEAN ACIDIFICATION PROGRAM,

                        OCEAN CONSERVANCY

    Dr. Cooley. Thank you, Chairwoman. Good morning. My name is 
Dr. Sarah Cooley, and I'm a chemical oceanographer and Director 
of the Ocean Acidification Program at Ocean Conservancy. I have 
studied the ocean carbon cycle for 18 years. I'm an expert on 
the impacts of ocean climate change on ecosystem services, a 
lead author on the Second State of the Carbon Cycle Report, and 
the upcoming Sixth Assessment Report of the IPCC, and I'm a 
review editor on the Fourth National Climate Assessment.
    That report, mandated by Congress, offers three key ocean 
messages, which I'll explain in my testimony. First, the 
Nation's ocean ecosystems are being disrupted by rising 
temperatures, acidification, deoxygenation, and other aspects 
of climate change, and this will worsen. Second, the Nation's 
fisheries are at high risk from climate-driven changes. Third, 
extreme events due to climate are already harming important 
fisheries.
    Our ocean is experiencing unprecedented changes. Rising 
temperatures and absorption of greenhouse gases is impacting 
the ocean's ability to sustain human communities and modulate 
the Earth's climate. The ocean has absorbed 93 percent of the 
heat energy trapped by greenhouse gases in the atmosphere. 
Despite this, our planet has still warmed by 1.8 degrees 
Fahrenheit since the turn of the last century. The ocean has 
also absorbed 22 percent of the atmospheric carbon dioxide 
released by human activity this decade.
    While this has slightly reduced the planetary warming that 
would have otherwise occurred, it's also changing the chemistry 
of the ocean. When carbon dioxide dissolves, it lowers seawater 
pH and alters chemical balances important for marine life. This 
is called ocean acidification. In the mid-2000s, widespread 
death of larval shellfish at hatcheries in Washington State and 
Oregon was definitively attributed to ocean acidification.
    We now know that ocean acidification causes many animals 
with hard shells and skeletons like corals and shellfish to 
grow more slowly and recover from damage less successfully. 
Some fishes and sharks become less able to find prey or avoid 
predators. Harmful algal blooms could become more frequent or 
toxic. Complex and hard-to-predict interactions occur among 
ocean acidification and other stressors, especially in the 
coastal zone. All of this can and already does impact human 
communities by disrupting fisheries, tourism, and more.
    Ocean heat absorption is also warming seawater and melting 
sea ice. This causes sea-level rise, and is changing ocean 
ecosystems and their benefits to people. Warmer ocean water 
holds less oxygen and allows less of the deep vertical mixing 
that normally moves oxygen into the ocean. Without enough 
oxygen in the ocean, ocean species will die. Warming oceans are 
driving our marine life north at about 5 miles a decade, but 
American lobsters have shifted north at 43 miles per decade. 
Rapidly shifting fisheries are very hard to manage, and these 
strain fishing-dependent communities. Sea ice is melting, 
causing ice-dependent species to lose key habitats and Arctic 
waters to warm even more. Subsistence hunting will become 
dangerous and difficult, which threatens indigenous 
communities' food security and ways of life. Decreasing sea ice 
also allows more Arctic vessel traffic, bringing opportunities 
and risks.
    This Committee can make a difference immediately by 
supporting science that focuses on solutions on how best to 
apply them, as well as continuing to support research that 
uncovers how the ocean-human system works. The common theme in 
the research recommendations detailed in my written testimony 
is that we need to understand how to apply individual findings 
to ecosystem scales and how to use that knowledge in an 
equitable, well-planned approach that will reduce the stress 
from ocean climate change on marine ecosystems and the human 
communities they support.
    The fundamental solution to ocean climate change is to 
decrease emissions, particularly of carbon dioxide. That is a 
formidable global challenge. But the United States is the home 
of modern oceanography. After the World Wars, we unraveled the 
secrets of the deep oceans to gain a global military edge. In 
doing so, we have learned how our planet works. With this rich 
history, I have no doubt that the United States is up to the 
task of understanding and addressing climate change, the ocean 
challenge of today.
    Thank you for the opportunity to provide this testimony.
    [The prepared statement of Dr. Cooley follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fletcher. Thank you, Dr. Cooley. We'll now hear 
from Dr. Horton.

                 TESTIMONY OF DR. RADLEY HORTON,

              LAMONT ASSOCIATE RESEARCH PROFESSOR,

                LAMONT-DOHERTY EARTH OBSERVATORY,

               COLUMBIA UNIVERSITY EARTH INSTITUTE

    Dr. Horton. Madam Chair, Members of the Subcommittee, my 
name is Radley Horton. I'm a Lamont Associate Research 
Professor at Columbia University's Lamont-Doherty Earth 
Observatory. Thank you very much for the opportunity to 
participate in this important hearing. I'm going to focus my 
remarks today on how the anthropogenic activities that we've 
heard about that have warmed the upper oceans are causing sea 
levels to rise.
    So there are two primary ways that global sea level rises 
as a result of that ocean warming. First and foremost, the 
upper oceans have warmed the surface of the ocean a degree 
Fahrenheit since 1900. That warming has made its way down to 
about 3,000 feet. That literally causes the ocean to stand 
taller. It's called thermal expansion.
    The second centrally important process globally is what's 
happening to land-based ice sitting in Greenland, Antarctica, 
and in high mountain glaciers. As the ocean warms, it's 
literally wearing away at the dams or buttresses if you will 
that are preventing that ice from sliding in part into the 
ocean. As more and more of that ice on land melts and makes its 
way into the water, we add mass to the ocean, causing further 
sea-level rise.
    So we've seen about 7 or 8 inches of sea-level rise 
globally since 1900. And there--importantly, there's been some 
acceleration over the past 2 decades or so. As we look to the 
future, projections of sea-level rise for, say, 2100, we see a 
big range. We hear about a most-likely range in the last 
National Climate Assessment of 1 to 4.3 feet. In my remarks I'm 
going to take an optimistic approach and just focus on what 1 
foot of sea-level rise would mean, as I say, a very optimistic 
take on it.
    And really, you know, fundamentally what I want to 
highlight is that even a little bit of sea-level rise means 
much more frequent coastal flooding and much more intense and 
higher-magnitude coastal flooding whenever you're having a 
storm.
    [Slide.]
    And as we can see from figure 1 here, we're already seeing 
that nuisance or sunny-day flooding is happening far more often 
than it used to across the U.S. coastline. For many locations, 
a five- or tenfold increase just over the last two generations 
in how often we are seeing these high water levels from Miami 
to Norfolk, for example. These are events that flood people's 
basements, make it impossible for businesses to open for normal 
operations, prevent people from being able to drive home along 
their normal coastal routes. When these events are rare, we can 
call them nuisances, but at what point if they're happening 
more and more often do they become something more than that, 
something that impacts real estate values, the ability to fund 
key infrastructure?
    Now, let's go to slide 2 and focus as we look out to the 
future at what just 1 foot of sea-level rise by 2100 could 
mean.
    [Slide.]
    What could it mean for the really extreme high water levels 
that currently happen once every 100 years along various parts 
of the U.S. coast? These are the high water levels that 
determine insurance rates and zoning plans. And what we can see 
is across the whole United States, events--high water levels 
that used to happen once per 100 years become things that you 
expect during the lifetime of the typical home mortgage. And in 
many places every year or two you could be seeing those high 
water levels occurring that used to happen once every 100 
years. Again, this is with just 1 foot of sea-level rise and no 
assumption about stronger storms. In reality, we expect--the 
balance of evidence suggests that the strongest hurricanes 
probably get stronger precisely because of ocean warming. That 
would make these effects worse than what you see here.
    It's not just more frequent coastal flooding, though. It's 
also higher magnitudes of flooding whenever a storm happens. 
One recent study found that if the New York region had been 
precisely the same when Hurricane Sandy struck except somehow 
the oceans had been a foot lower, as they were 100 years ago, 
80,000 fewer people would have experienced flooding in their 
homes. That's the impact of just a little bit of sea-level 
rise.
    So this is also obviously a public health and safety issue. 
It means less time for people to evacuate around low-lying 
coastal areas, and for those unable to evacuate, it means 
greater risk of death, more damage to buildings as those water 
levels are higher, waves are able to penetrate further inland.
    Along our coasts are assets worth trillions of dollars: 
businesses, homes, hospitals, I-95, Amtrak, our airports. But 
the economic impacts are going to make their way further inland 
as well. U.S. taxpayers bear the brunt of the bill for these 
coastal flood damages, and our coasts are economic hubs for all 
activities. There are also national security implications that 
I hope we may have a chance to discuss.
    Far inland from our coasts, extreme weather events are 
impacted by that warming of the ocean as well. We're loading 
the dice toward more heavy rain events and combinations of high 
heat and humidity that harm our most vulnerable populations and 
affect the economic productivity of our outdoor laborers as 
well.
    I've had the good fortune to learn a great deal from 
decisionmakers, as well as young people eager to tackle these 
problems and learn more. For example, investors are demanding 
now that companies disclose their exposure to sea-level rise. 
These experiences have convinced me that although we are fast 
running out of time, a window still remains open for the 
ultimate tipping point or surprise, specifically rapid societal 
action to reduce our greenhouse gas emissions and prepare all 
of us for these climate changes that are underway.
    Thank you for inviting me to testify, and I look forward to 
our discussion.
    [The prepared statement of Dr. Horton follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fletcher. Thank you, Dr. Horton. We'll now hear 
from Dr. Frazer.

               TESTIMONY OF DR. THOMAS K. FRAZER,

            PROFESSOR AND DIRECTOR, SCHOOL OF NATURAL

        RESOURCES AND ENVIRONMENT, UNIVERSITY OF FLORIDA

    Dr. Frazer. OK. Good morning, Madam Chair and Members of 
the Committee. So my testimony is a little longer than 5 
minutes, so I think I'll cut right to the meat of it.
    My background is in marine ecology and fisheries science, 
and I draw on my academic training and other professional 
experiences to provide here some examples of how and where 
investments in science would yield substantial value.
    Wild-caught fisheries yield approximately 90 million metric 
tons of fish and shellfish per year. However, this bountiful 
natural resource is already threatened with about 1/3 of global 
fish stocks classified as overfished. And changing climate 
introduces new challenges. Among those challenges are changes 
in the ranges of exploited species, both expansions and 
contractions, and changes associated with alterations to 
habitats. As sea surface temperatures increase, some warm water 
species can expand their ranges northward, but some colder 
water species will be forced to contract their ranges.
    As global climate changes, we will also see changes in 
habitats. These changes range from shifts in major ocean 
currents that will alter patterns in movement and recruitment 
to potential loss of inshore structural habitats such as 
seagrass meadows that provide food and shelter for a large 
number of exploited fishery species.
    In response to such challenges, managers will have to adapt 
their strategies with the key thrust being a commitment to 
ecosystem-based fishery management, as proposed by NOAA 
Fisheries. For example, managers will need to be able to 
differentiate between range expansions driven by increased 
stock abundances that result from effective management actions 
and range shifts driven by changes simply due to water 
temperatures and ocean currents. Fisheries managers will also 
need to factor habitat and other environmental variables into 
stock assessments and stock projections because altered 
habitats appear to be an inevitable consequence of climate 
change.
    Overall, managers will need to move from harvest quotas 
established primarily on the basis of historical landings to 
quotas that account for a changing or nonstationary 
environment. In addition, managers will need to consider ways 
to help, potentially even fund, adaptation by the recreational 
and commercial fishing industry such as moving access points in 
wholesale and retail outlets. Without such adaptations, we in 
the United States stands to lose a substantial portion of more 
than 1.7 million jobs, more than $212 billion in sales, and 
$100 billion in gross domestic product generated by these 
industries.
    Science comes into play because it is the best base for 
designing and implementing the necessary adaptations to 
existing management of our Nation's fisheries. One way that 
science can help us by providing timely and accurate 
information on the status and trends of stocks and habitats. A 
second way that science can help us is to transform the tools 
and techniques needed to mitigate undesirable changes in fish 
stocks or the habitats that support them.
    Given the time constraints imposed on this hearing, I will 
focus on one example in mitigating loss of habitat: 
Rehabilitating coral reefs. Coral reefs occupy a relatively 
small proportion of the ocean realm, but harbor more than 25 
percent of marine biodiversity. Coral reefs also support 
important recreational, commercial, and subsistence fisheries 
around the globe. In fact, coral reefs yield approximately 25 
percent of the total fish catch in developing nations and 
contribute substantially to the economies of more than 100 
countries that promote reef-related tourism, including our own. 
They are, however, one of the most imperiled habitats on the 
planet due to nutrient pollution, physical damage, overfishing, 
and other local stresses.
    Global climate change only exacerbates this problem. 
Managers must continue to address local stresses and, as 
already indicated, we need to reduce emissions of greenhouse 
gases to address global stresses. Regardless of our efforts, 
nearly all coral reefs will be threatened by conditions 
generated from existing levels of climate change by the year 
2050. In fact, managers should prepare to mitigate both 
existing damage and the damage that will occur from the 
inevitable changes in global climate that have already been 
initiated.
    Rehabilitating and restoring damaged and degraded reefs 
will require transformational innovations and advancements 
based on sound science. Key questions to be addressed are 
included in my written testimony. Answering those questions and 
transferring the new knowledge into effective and efficient 
innovations and investments will take time and a consistent 
stream of resources. In fact, it is an investment that we 
should begin now.
    In conclusion, I reiterate my agreement with much of what 
you have heard from others. Climate change poses significant 
threats, and now is the time to begin addressing the human 
activities that drive it. My goal today was to introduce a 
potentially new topic, the need for consistent investment in 
science that will support incremental adaptation to the effects 
of climate change and build the basis for transformational 
change in mitigating existing and future effects. My hope is 
that this initial contribution might persuade you and the 
Committee Members to include discussion of the risk and rewards 
associated with long-term investments in science in your future 
deliberations.
    I will close by saying that I am happy to participate in 
those discussions.
    [The prepared statement of Dr. Frazer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fletcher. Thank you, Dr. Frazer. We'll now hear 
from Ms. Pilaro.

                TESTIMONY OF MARGARET A. PILARO,

           EXECUTIVE DIRECTOR, PACIFIC COAST SHELLFISH

                       GROWERS ASSOCIATION

    Ms. Pilaro. Thank you very much, Madam Chair, for having me 
here today.
    I am--as the Director of the Pacific Coast Shellfish 
Growers Association, I am extremely proud to represent some of 
the hardest-working women and men on the West Coast. Shellfish 
farming, which employs thousands of people in rural economies 
on the West Coast, depends on the tides, with the most rigorous 
work occurring at low tide, which half the year falls during 
the winter months. And as a bit of a cruel joke from Mother 
Nature, those tides occur during the middle of the night.
    There is both significant amount of pride and 
responsibility among shellfish growers because most of the 
members of my organization are second-, third-, and fourth-
generation farmers, all of which depend upon a healthy 
environment to farm, and therefore are avid protectors of 
coastal and marine ecosystems.
    Shellfish farming began commercially in the mid-to-late 
1800s, and we know that oysters fueled the California gold 
rush. In the 1920s the native oyster populations along the West 
Coast became depleted from overharvesting but also due to poor 
water quality, and this was one of the first periods of 
adaptation that growers faced.
    The shellfish industry turned west to Japan and brought 
over the Pacific oyster, which naturalized well. However, in 
part because of natural reproduction of that oyster was not 
robust enough to support the growing demand, the industry in 
the 1970s moved to hatchery production for larvae and seed, or 
baby oysters. The largest of these hatcheries at the time was 
Whiskey Creek Shellfish Hatchery in Oregon. It's a family run 
business to this day, which at that time supplied over 70 
percent of the West Coast farms with seed. The predictability 
of hatchery seed allowed the industry to flourish well beyond 
Oregon and Washington and now to California, Alaska, and 
Hawaii, and beyond oysters to now clams, mussels, and a large 
West Coast burrowing clam called the geoduck.
    In 2007, Whiskey Creek stumbled upon the next chapter in 
shellfish farming's path of adapting when the hatchery 
witnessed a 70 to 80 percent mortality of oyster larvae. They 
immediately tried to determine the cause, looking to natural 
bacteria and disease, but in consultation with researchers at 
the University of Washington understood that the issues related 
to acidic water, or low pH, and carbonate concentration.
    Buffering the water, Whiskey Creek Hatchery and a second 
hatchery experiencing the same fate had begun to do, had been a 
solid fix, although somewhat temporarily. A longer-term 
adaptation needs to be considered and is necessary, especially 
since oceanographers tell us that this change in pH is due to 
older water, which has been absorbing the Earth's carbon 
emissions for a century and that even stopping the carbon 
emission inputs today would mean 30 to 50 years of acidic 
waters in the future. It also means issues not just for oysters 
but for all marine organisms.
    During the past 10 years, we are beginning to learn that 
other climate-related changes impact the growth and health of 
shellfish beyond the hatchery and onto the beaches of farms. We 
are experiencing hypoxic periods, increasing temperatures, a 
decrease in available food in the water column, an increase of 
disease and harmful algal blooms, changes in growth patterns 
for the shellfish such as yield, size, and the way in which 
they grow generally. One specific example is that we are seeing 
impacts to the abyssal threads of mussels. These threads are 
what allows mussels to attach to structure for them to grow. 
Without healthy abyssal threads, mussels cannot grow. We are 
also seeing a decrease in resistance to shellfish predators, 
such as oyster drills, and an increase in intensity and 
frequency of storm events. These are all things to which the 
industry must adapt.
    Real-time oceanography data collected by the Integrated 
Oceanographic Observing System, or IOOS, plus the guidance of 
NOAA's Ocean Acidification Program have been essential to the 
industry. Shellfish farmers who had just been used to 
consulting tide books are now looking at real-time temperature, 
salinity, and carbonate data on their phones while they are on 
the beach working. In addition, the industry on both coasts. 
The industry on both coasts takes advantage of discussions at 
local universities, nonprofits, and governments in finding ways 
to help.
    We need more. We need to better understand the interactions 
of shellfish and other organisms such as kelp and grasses. We 
need to look into genetics to see if there are families much 
better suited to survive these changes, much like we've done in 
the wheat and grain industry. We need to understand how rising 
sea levels will impact where and how shellfish will grow. We're 
in exciting times of technology, and shellfish farmers are not 
easily discouraged because if they were, they wouldn't get out 
of bed each morning. But we need help in policies and 
leadership to allow the tradition of shellfish and the families 
that have been farming shellfish for generations to continue 
long into the future.
    Thank you very much for inviting me here today.
    [The prepared statement of Ms. Pilaro follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fletcher. Thank you, Ms. Pilaro.
    At this point we will begin our first round of questions. 
And the Chair recognizes herself for 5 minutes.
    So I want to ask a general question to everyone on the 
panel. It seems that--to us that the scientific consensus that 
we've heard in this hearing this morning and in our full 
Committee hearing is pretty solid, but on the state of the 
oceans it seems that there are major challenges to being able 
to understand because of the breadth and the scope of the 
research left to do.
    There have been some major advances in our understanding of 
how carbon emissions impact the oceans and coasts through ocean 
warming, acidification, deoxygenation. But I think there's 
still a lot that we understand is unexplored, inaccessible, and 
expensive to study.
    So my question, if each of you could share with us your 
thoughts on what the biggest challenges to studying these 
changes are and what are the ways that the Federal Government 
can help in exploring these and addressing the challenges that 
you experience in your research?
    Dr. Cooley. I would say that one of the biggest challenges 
is the ocean is vast. And as you note, it's very difficult to 
be everywhere and understand all the processes. There have been 
substantial advances in the last decades on remote observing 
systems where autonomous devices can go out through the ocean 
and measure different variables and then send back the data to 
researchers on land. That's only one piece of it, though. We 
have satellites that can help as well with that same type of 
work. However, bringing that information together and making 
sure that there's no drift in the instruments still requires 
some individuals to be out there sampling.
    So I think an integrated viewpoint of how to inquire what 
is happening in the ocean is important to keep in mind. You 
know, no one is more excited than oceanographers about cool 
devices that go through the ocean, but we realize that there 
is--there needs to be sort of a network to bring that 
information together and put it to work.
    Dr. Horton. Another piece I might highlight is the modeling 
component, greater resources, and supercomputing that leverages 
some of those observations and helps us understand processes at 
various scales in the ocean, but also as we think about some of 
the tail risks that I didn't have a chance to talk about, why 
we might get more than a foot of sea-level rise, for example, 
to really understand those risks, we have to understand the 
interaction of things like changes in ocean currents with loss 
of Arctic sea ice, what might that indirectly mean for the 
Greenland ice sheet, for example, and how could changes in that 
ice sheet feed back on ocean circulation? Those are where we 
start to see the uncertainties, and the further we push 
greenhouse gas concentrations, the bigger the risk of 
unpleasant surprises, so we need models to help us understand 
those risks more fully.
    Chairwoman Fletcher. Thanks.
    Dr. Frazer. I would agree with what I just heard. Data are 
key, and there are certainly observing systems that are 
becoming better and better all the time. I think we need to 
continue to improve on those and develop the technologies that 
will allow them to advance further. Again, I come from a 
fisheries background, right, and data in that regard, real-time 
data collection or near real-time data collection is super, 
super important. Right now, we assess stocks based on data that 
might have been collected 5 years ago, but things are changing 
much faster than that, and so we need to probably incorporate a 
more regular sampling of fishes, to get the data that we need 
to make good assessments to inform the industry as to what they 
can do.
    And I would agree also that modeling is key. Modeling 
integrates all of that information and helps us to make 
predictions so that we can adapt in a timely manner. Thank you.
    Ms. Pilaro. Well, I will agree with everything else that 
the panel has said. I will emphasize the relationship between 
species is important, how does shellfish interrelate to other 
organisms in the ocean?
    Funding is harsh. There's a lot of competition for small 
amount of funds. And getting the data, the information, the 
output from models, all of what was mentioned into the hands of 
someone who really can use it like the shellfish growers is 
beneficial because: A) they're using it to solve real-world 
problems, and B) it brings attention to the applicability of 
the data and research, which then hopefully will reinforce the 
need and the acceptance of funding these important activities.
    Chairwoman Fletcher. Thank you all. I yield back the 
remainder of my time, and I now recognize Mr. Marshall for 5 
minutes.
    Mr. Marshall. All right. Thank you, Chairwoman.
    I'm going to ask you all about innovation. I want you to 
think about what's out there, the greatest, latest, don't be 
afraid if it's a crazy idea. Think outside the box. What's 
going on in the world that's innovative? I'm particularly 
interested in phytoplankton farming or kelp farming, and I 
think about, you know, the shellfish industry. Maybe we should 
be trying to grow more kelp than worried about the genetic 
editing of oysters or something like that. So maybe, Ms. 
Pilaro, we'll start with you and go backward. Maybe take 30 
seconds. What's out there that's great and late in innovation?
    Ms. Pilaro. Well, I agree with you that there is some 
really great innovation in kelp farming, and the relationship 
between kelp and shellfish is fabulous.
    Mr. Marshall. Right.
    Ms. Pilaro. Multi-trophic farms, where shellfish and kelp 
are growing together, have been difficult to permit. So when we 
talk about policies, this is something that we'll need to talk 
a little bit more about.
    Also, to make a connection with your amber waves of grain, 
I think there's a lot of fabulous genetics work for wheat and 
grain that can also be applied to shellfish, which is a fairly 
new approach, compared to other agriculture crops. We're not 
looking to alter the organisms genetically, rather finding 
families that are more resistant to some of these challenges.
    Mr. Marshall. Great. If you can get to us your--what you 
need. You mentioned some type of--some processes or--that would 
help you to do more of the kelp farming. Let us know. And, by 
the way, I think the Department of Agriculture would do a great 
job overseeing the gene editing compared to the FDA (U.S. Food 
and Drug Administration), just an aside. Dr. Frazer, you're up.
    Dr. Frazer. Great, thank you. So I would agree as well. I 
think that there are certainly molecular advances that we can 
employ to help identify more resilient strains of particular 
organisms and to focus on perhaps using those in mitigation 
efforts.
    I'm interested in your phytoplankton and kelp question. I 
agree with you there that phytoplankton and kelp take up and 
assimilate a large amount of CO<INF>2</INF>, and so do other 
things such as seagrass beds. And I think what we should try to 
do is safeguard those habitats so that they can continue to 
perform like they're supposed to. The issue of actually trying 
to increase their abundance or grow them, I think we do face 
some challenges right now with regard to scalability, and it's 
something that----
    Mr. Marshall. Are people doing it? Are people researching 
it? Is University of Florida leading the charge? Who's leading 
the charge on it?
    Dr. Frazer. I think there's--universities are--certainly 
the University of Florida is doing some of that, and other 
universities around the Nation are trying to invest to figure 
out how to increase the capabilities of autotrophs, including 
phytoplankton, and other organisms to grow, and sequester that 
carbon.
    Mr. Marshall. Thanks. Yes, Dr. Horton.
    Dr. Horton. Yes, I like how your question about innovation 
references both the potential for greenhouse gas mitigation, 
measures that could take carbon out of the atmosphere but also 
adaptation and resilience. I think we really do need both. By 
reducing emissions, we can buy ourselves time for some of these 
technologies to come into play with the right kind of 
investments, as you say.
    I guess one other quick thing to highlight within the 
adaptation space is, again, from a modeling perspective, can we 
test out some of these solutions, things like storm surge 
barriers, dredging, so we can better understand costs and 
benefits associated with those activities? There might be an 
obvious benefit of preventing a storm surge, but what could be 
some of the potential downsides? And some of that gets into the 
social science, that sort of moral hazard, what if a barrier 
fails? I think those are a whole bunch of social science 
questions involved in those living at the coast, how they 
perceive some of these emerging hazards, potential changes in 
real estate value that are maybe sort of outside the realm of 
the science component but deep social science questions that we 
are engaging with communities and as they sort of lead the 
charge in thinking about these resilience issues.
    Mr. Marshall. Thanks. Yes, Dr. Cooley?
    Dr. Cooley. I think it's a great question. Innovation is so 
important, but technology and devices is just one piece. So the 
other piece is innovation and decisionmaking and how we put 
that information to work. You mentioned that you work in 
healthcare. You've gotten a great front seat to what innovation 
has done. What we see there is that new devices have given more 
information for better patient care and better collective 
decisionmaking. We're learning a lot more about how to do that 
in the ocean environment.
    The example that Ms. Pilaro outlined in the West Coast has 
been a great example of how better technology for shellfish 
growers has led to a better regional outcome. And I think we 
need to take the best lessons from that and learn how to apply 
it to the ocean common resources that we want and care about.
    Mr. Marshall. All right. I'm going to go over my time here, 
so I better yield back since this is a new Chairwoman in charge 
here. I'll yield back. Thank you.
    Chairwoman Fletcher. Thank you, Mr. Marshall.
    I'll now recognize Ms. Bonamici for 5 minutes.
    Ms. Bonamici. Thank you, Chair Fletcher and Ranking Member 
Marshall. And thank you to our witnesses. I've been looking 
forward to this hearing, and I'm really glad, Mr. Marshall, to 
hear you're excited about science. And this is an important 
issue even for our colleagues and constituents who do not 
represent coastal areas because, as we've heard this morning 
and we know, the health of our oceans reflects the health of 
our planet.
    Oregon's economic vitality is dependent on the health of 
the Pacific Ocean and the lower Columbia River estuary. We're 
very vulnerable to the effects of climate change, especially 
ocean and coastal acidification. As Co-Chair of the House 
Oceans Caucus, I know that the health of our natural resources 
and marine resources is critical, and I'm advocating for 
investments in research to predict and adapt these challenges.
    I recently reintroduced the bipartisan Coastal and Ocean 
Acidification Stressors and Threats, or COAST, Research Act, 
with Representative Young, also the other Co-Chair of the 
Oceans Caucus, Representative Pingree, and Representative Posey 
to expand the scientific research and monitoring to improve our 
understanding of ocean and coastal acidification. The bill 
would improve research on ocean and coastal acidification in 
the context of environmental stressors, assess adaptation and 
mitigation strategies, and designate NOAA as the lead Federal 
agency responsible for implementing the Federal response.
    Additionally, the bill would increase our understanding of 
the socioeconomic effects of ocean acidification and coastal 
acidification in estuaries. It would engage stakeholders, 
including the commercial fishing industry, researchers, and 
community leaders through an advisory board, and provide for 
the long-term stewardship and standardization of data on ocean 
acidification from different sources, including the National 
Centers for Environmental Information and the Integrated Ocean 
Observing System. These efforts will help identify risks and 
inform vulnerable communities, industries, and coastal and 
ocean managers on how they can best prepare and, when possible, 
adapt to changing conditions.
    Dr. Cooley, I appreciate in your written testimony you 
discuss some of the research gaps. Thank you for that. You also 
discuss how the fundamental solution to ocean warming, 
acidification, and oxygen loss is to decrease greenhouse gas 
emissions, emphasizing the connection between ocean 
acidification and greenhouse gas emissions. And I think we 
heard that from everybody on the panel today.
    How do you--Dr. Cooley, how do human-caused greenhouse gas 
emissions change seasonal upwelling, when the winds cause 
nutrient-rich deeper water to rise from below, especially on 
the Pacific coast?
    Dr. Cooley. Thank you for that question, Congresswoman, and 
thank you for your leadership on introducing the COAST Research 
Act.
    The action of atmospheric warming tends to change or 
enhance upwelling favorable winds. Winds that come from a 
certain direction along the coastline will drive upwelling 
naturally, and that can be enhanced when those winds become 
stronger. And that allows deeper waters to move up along the 
coast and reach coastal resources and fisheries decades sooner 
than they would be expected to.
    So in the Pacific Northwest, as Ms. Pilaro highlighted, 
shellfish growers were experiencing waters that upwelled 50 to 
100 years earlier than expected, and they were carrying water 
that had an extra enhanced amount of carbon dioxide in it from 
being exposed to the atmosphere this century.
    Ms. Bonamici. Thank you. I want to get two more questions 
in. Dr. Cooley and Dr. Horton, how can Congress best support 
adaptation and mitigation strategies to address the 
socioeconomic effects? And if you could answer briefly because 
I really want to get in a question for Ms. Pilaro.
    Dr. Cooley. I think probably the most important piece is to 
support structures that involve multiple stakeholders and set a 
collective vision.
    Ms. Bonamici. Great. Dr. Horton?
    Dr. Horton. I would agree with that. Vulnerable 
communities, just to give one example. When we think about the 
combination of high temperature and high humidity, that's going 
to affect the elderly, those with pre-existing health 
conditions. It's not one-size-fits-all. We need science to help 
us understand how different communities differ in their 
vulnerability and in the adaptation strategies that make the 
most sense for them because ultimately these are about long-
term decisions that are good for all of society.
    Ms. Bonamici. Thank you. And, Ms. Pilaro, at Oregon State 
University Dr. Burke Hales developed the Burke-o-Lator, a 
device the size of a piece of carry-on luggage that can analyze 
when the shellfish growers across the Pacific Northwest should 
grow larva based on the acidity and effects of calcium 
carbonates needed for the shell formation. As you discuss in 
your testimony, the shellfish hatcheries, especially Whiskey 
Creek Shellfish in my home State of Oregon, have been on the 
frontlines of responding. Why are Federal investments in tools 
like the Burke-o-Lator and the data from the Integrated Ocean 
Observing System necessary for our fishers and the shellfish 
industry?
    Ms. Pilaro. It's critically necessary because some of these 
impacts are happening regardless of where the shellfish farming 
happens and where hatcheries are, so it's not bound by a State, 
it's not bound by a region. And so having that Federal 
commitment and input is vitally important. We don't want to be 
in a situation where a private entity builds something and then 
keeps it to themselves. It would be helpful to have something 
that all of the folks who are interested in harvesting from the 
sea, whether it's kelp or shellfish or anything else could use. 
Any other fisheries resource can gain access to that 
information and that technology.
    Ms. Bonamici. Thank you. And, Chair Fletcher, I apologize 
for going over time, but as I yield back, I request unanimous 
consent to add several letters from ocean stakeholder groups to 
the record in support of the COAST Research Act.
    Chairwoman Fletcher. Without objection.
    Ms. Bonamici. Thank you, Madam Chair. I yield back.
    Chairwoman Fletcher. I will now recognize my colleague from 
Texas, Mr. Babin, for 5 minutes.
    Mr. Babin. Thank you, Madam Chair. I appreciate it. And 
thank you, witnesses, for being here as well.
    Dr. Horton, many of the Green New Deal proponents are 
suggesting that greenhouse gas emissions are at a catastrophic 
level, some of which are claiming that we have 12 years left. 
Do we have 12 years in your opinion?
    Dr. Horton. So----
    Mr. Babin. Just keep it as brief as you can if you don't 
mind. I've got some other questions, too. You need to turn on 
your microphone.
    Dr. Horton. The further we turn up the dial on greenhouse 
gas emissions, the greater the risk of potential surprises that 
are very hard to predict.
    Mr. Babin. So it's--we're getting close to that point then 
in other words? And also, do you think it's responsible for 
some of our Nation's leaders and the media to suggest that 
certain doom will arrive unless we adopt the Green New Deal 
policies?
    Dr. Horton. I can't speak to the specifics of Green New 
Deal policies. What I can say is that to the extent that it 
represents an appreciation of the urgent need to reduce 
greenhouse gas emissions, I agree that's something that we 
really do need to do, given the hazards I described in my 
testimony.
    Mr. Babin. OK. Thank you. Because some of these policies 
may cost some jobs, and some of the costs that we've heard have 
been stunning.
    And, Dr. Cooley, do you think that the Green New Deal 
should be passed into law?
    Dr. Cooley. Well, I'm not here to talk about the Green New 
Deal, but what is----
    Mr. Babin. Do you think it's a good idea that we--that it's 
been put forward----
    Dr. Cooley. The Green New Deal has started a conversation 
about details, which we haven't had before. We're having 
discussions across the aisle about the future we want and the 
specific ways we can get there, and that is incredibly 
inspiring as a scientist who's interested in details and 
solutions. How do we get from here to there?
    Mr. Babin. OK.
    Dr. Cooley. That's a really tough question.
    Mr. Babin. Yes, thank you very much.
    Dr. Cooley. Thank you.
    Mr. Babin. And, Dr. Frazer, what are some of the solutions 
that you think will aggressively target climate change that 
might not hurt American families or the economy? Because some 
of the proponents of the Green New Deal have put forward these 
provisions that would absolutely hurt my District 36 in Texas 
and much of the economy. Give me some ideas that you have of 
what might be some of these solutions that wouldn't be so 
hurtful because of my constituents--concerns for my 
constituents?
    Dr. Frazer. Well, as I said in my testimony, I think that 
there are lots of vulnerable habitats out there, for example, 
that are affected by a large number of stressors. And if we 
could make sure that we manage and maintain those habitats, 
they would continue to play a role in ameliorating some of the 
risk associated with climate change but not entirely. So I 
would pay attention on proper management of the habitats so 
they don't continue to degrade. Seagrass, this would be one of 
those, kelp habitats, and others.
    Mr. Babin. Absolutely. Thank you.
    And, let's see, Dr. Frazer, one more. If the United States 
does implement the Green New Deal, how would we keep American 
jobs here? In your opinion would costs rise as much as some of 
these--we've looked at $93 trillion of costs to the American 
taxpayer. In your opinion, would that--is that true? We've seen 
time and again that green companies take their production 
overseas for cheaper cost and production, so how do we address 
this, you know, when the American taxpayer is expected to foot 
the bill for some of the biggest polluters in the world, and 
China being one of them? It doesn't seem fair. What is your 
opinion there? What are your thoughts?
    Dr. Frazer. So, again, I--what I would say is that what 
we've heard today is that there's an investment that needs to 
happen with regard to data collection, and it's all kind of 
data collection from innovation and technologies, modeling, and 
real-time data collection.
    With regard to the area that I'm mostly involved in, 
fisheries, that increased data collection actually increases 
the certainty by which we can estimate the stocks that we can 
access, and by increasing that certainty, we can actually 
exploit more fishes. And that actually ends up being an 
economic benefit. So sometimes in order to make money, you have 
to pay money, right----
    Mr. Babin. Sure, yes.
    Dr. Frazer [continuing]. And so I think what we should be 
thinking about is making wise investments and getting good 
return on those investments.
    Mr. Babin. Do you think the Green New Deal is a good thing 
and should be passed into law?
    Dr. Frazer. I'm not going to speak specifically to the 
Green New Deal because I don't--I haven't read it. I apologize.
    Mr. Babin. OK. All right. Well, Madam Chair, I think that 
finishes me up. Thank you very much.
    Chairwoman Fletcher. Thank you, Mr. Babin.
    I'll now recognize Mr. Crist for 5 minutes.
    Mr. Crist. Thank you, Madam Chair and Ranking Member 
Marshall, and thank you to our witnesses for being here today.
    The Intergovernmental Panel on Climate Change's special 
report that came out last year states that coral reefs are 
projected to decline by an additional 70 to 90 percent with an 
increase in global temperatures of 1.5 +C. A 99 percent loss 
would be experienced with an increase of 2 +C. Florida, where I 
live, which is home to the fourth-largest barrier reef in the 
world, the Florida Keys reef system, is already experiencing an 
unprecedented coral disease outbreak.
    Dr. Cooley, can you discuss in more detail how global 
temperatures increases to impact our coral reefs and what this 
means for places like Florida that rely on these oceans and 
coastal resources?
    Dr. Cooley. Thank you for that question. Coral reefs are 
extremely sensitive to temperature, and when they receive too 
much of a heatwave effect or too much intense heating in a 
short period of time, they will lose the cells that live inside 
the corals that help them produce food. And so the corals are 
without resources at that point. That's a coral bleaching 
event. That can quickly lead to coral death. And at the same 
time acidification is sort of decreasing the ability of those 
corals to recover because it's decreasing the net growth rate 
of corals. So when corals experience bleaching or breakage, 
they're less able to recover. And that really is a one-two 
punch. It's very, very serious for corals.
    Mr. Crist. Thank you. My next question is addressed to all 
of the panelists. What can we do to preserve our coral reef 
systems overall? Whoever wants to go first.
    Dr. Frazer. I'm happy to field that one for sure. I mean, 
there's a tremendous amount of local pressure on coral reefs. 
There's eutrophication that's a consequence of increased 
nutrient delivery. There's physical damage, again, due to 
anchoring and other activities. There's sedimentation due to 
coastal development. All of those types of things contribute to 
the degradation of coral reefs, and they make them more 
vulnerable obviously to the stresses that are associated with 
increasing warming temperatures. So I think you need to pay 
attention to both the local stressors and certainly continue to 
increase the greenhouse gas emissions problem.
    Mr. Crist. Anyone else?
    Ms. Pilaro. I would just add I'm not a scientist but one of 
the things that's important in a situation like this be it 
coral reef reduction or shellfish larvae mortality, is 
education is education and communication and sharing that 
information with a wide variety of people. To a certain extent, 
it affects everybody, and you need to find the right message, 
the right way to tell that story to as broad a population as 
possible.
    Dr. Horton. So maybe this is a window to talk a little bit 
about correlation across different types of extreme events and 
sort of compounding factors. So for those reefs if we're seeing 
even just a little bit of an increase in rainfall and more 
runoff as a result and if we're seeing just a little bit 
stronger storms as those oceans warm, once we couple that with 
sea-level rise, we see nonlinear combinations now where 
suddenly there's a lot more standing water, a lot more runoff, 
and maybe some unpredictable effects on coral reefs related to 
that sort of linking of the global and more local scales. So 
those are the kind of hazards we need to understand better, and 
we need science to do so.
    Mr. Crist. Great. Thank you. Dr. Frazer, as a fellow 
Floridian, I know that you're extremely familiar with the red 
tide outbreak that Florida suffered this past year. One thing 
that struck me about the outbreak was the lack of information 
as to why the--it was so severe this past year. Do you have any 
suggestions as to that?
    Dr. Frazer. Again, I--I'm super familiar with that as well, 
and I--and one of the things that we don't understand about red 
tides is why they actually establish themselves. And it gets to 
this issue that we talked about earlier about data acquisition, 
right? And we need to make sure that we have the data 
collection systems in place so that we're not behind the eight 
ball in this particular case. So that's my answer.
    Mr. Crist. OK. Thank you, sir.
    Thank you, Madam Chair. I yield back.
    Chairwoman Fletcher. Thank you, Mr. Crist.
    I now recognize Mr. Gonzalez for 5 minutes.
    Mr. Gonzalez. Thank you, Madam Chair and Ranking Member 
Marshall, for holding the hearing today. I also want to thank 
the witnesses for being here. I know it takes a lot of prep and 
can be stressful, so I appreciate your participation.
    So I do believe climate change is real and global 
industrial development has been a contributing factor, but I 
also believe that the proposals that we've seen in the Green 
New Deal quite frankly would devastate my community. I'm from 
northeast Ohio, think steel country, a lot of manufacturing, a 
lot of agriculture, these kind of energy-intensive businesses 
if you will, and the proposals being presented would raise our 
energy cost to such a level that I can't help but think that 
our citizens, my constituents, would be making tradeoffs 
between things like fueling up their car or putting food on the 
table. And I think that is just fundamentally unsustainable. 
That makes no sense.
    But, again, the problem is real, and I'm committed to 
finding a broad basket of market solutions to tackle the 
challenges of the present and future. What I believe is that we 
need to focus on technologies that are going to make consumers 
and industry essentially neutral when it comes to the energy 
source. And the only way we can do that is by making our energy 
sources affordable and reliable. We ignore the reliability part 
but--too often, but the Green New Deal and all those proposals 
kind of ignore it, and I think that's wrong. So I believe we 
need to focus on technology solutions that we can export abroad 
that are going to make energy cheap and reliable, bottom line.
    And so I represent, as I mentioned, a non-coastal district 
located in northeast Ohio. We don't have an ocean reef or 
coastal beaches. So my first question will go to Dr. Frazer or 
anyone on the panel. But, you know, when I'm educating my 
constituents on why this challenge, specifically the one we're 
here to address today, affects them, what--you know, what would 
you say for somebody from my district?
    Dr. Frazer. Well, I'm again going to speak about fisheries, 
right----
    Mr. Gonzalez. Yes.
    Dr. Frazer [continuing]. And there's--people tend to think 
of fisheries as being a coastal resource, but those fisheries 
products are--serve the Nation in its entirety, right? There is 
a supply chain there. There are businesses, retailers, 
wholesalers, restaurants, and I'm pretty sure that in Ohio 
people eat lots of seafood. And so, again, it's something 
that--it's not just a natural resource issue----
    Mr. Gonzalez. Yes, right.
    Dr. Frazer [continuing]. It's a food security issue as 
well, right? So that's why you should care.
    Mr. Gonzalez. We have the best walleye in the world by the 
way.
    Dr. Frazer. Excellent.
    Mr. Gonzalez. So, again, Dr. Frazer, you discuss the 
importance of long-term investment in science and state good 
science can take a while to come to fruition. And again, that's 
kind of where I think we need to be headed is technological 
innovation that's going to bring cost down and reliability up. 
In this instance how do you suggest we as Congress 
differentiate between good science and bad science, and how do 
we make sure the science is robust enough?
    Dr. Frazer. I think that Congress--well, let me step back a 
minute and say that we have organizations in the United States, 
the National Science Foundation, for example, and NOAA that are 
in the business of evaluating science in a peer-reviewed 
process. I think you would--should depend on that. The 
priorities can be established elsewhere, and they certainly 
involve tradeoffs. And I think that's something that's best in 
the hands of the policymakers.
    Mr. Gonzalez. OK. And then where--and this is for anybody 
if anybody wants to jump in. Where are we seeing the most 
promise from a technological standpoint? Where is the research 
saying, hey, you know, if we could double down on this set of 
activities, I think we could really make some headway? Anybody, 
feel free.
    Ms. Pilaro. One way in which I think--and I spoke to it 
earlier in Mr. Marshall's question is, in looking at how 
animals respond to these climate-related changes and what 
genetic traits they carry that make them more resistant to some 
of the stressors that they are experiencing. As things are 
changing, we need to better understand the physiology of the 
animal and what they have. Growing shellfish with native 
eelgrass is something that's been happening for a long time and 
is a symbiotic relationship for both of those species, but, as 
I mentioned earlier, with cattle and grain they've looked at 
those families and their genetic make-up which allows them to 
be more commercially viable under certain conditions. This 
approach for fisheries is fairly new and for shellfish it is 
very new; both of which would benefit from additional work. The 
Animal Research Service under the USDA (U.S. Department of 
Agriculture) is the most appropriate and would be a fabulous 
place to invest some----
    Mr. Gonzalez. Great.
    Ms. Pilaro [continuing]. Funds.
    Mr. Gonzalez. Thank you, and I yield back.
    Chairwoman Fletcher. Thank you. I'll now recognize Mr. 
Casten for 5 minutes.
    Mr. Casten. Thank you, Chair--Chairwoman. The--I'd like to 
ask some questions of Dr. Horton, and I wanted to follow on--
you described in your testimony a delay between CO<INF>2</INF> 
emissions and sea-level rise, and given how rapidly we are--on 
an unprecedented basis we're increasing CO<INF>2</INF>, you can 
appreciate that that makes me a little nervous. How far back in 
the geologic record do you have to go to find CO<INF>2</INF>--
atmospheric CO<INF>2</INF> levels of where they are right now?
    Dr. Horton. Literally millions of years.
    Mr. Casten. And if you look back in that time, do you have 
any sense of what the temperature was then relative to what it 
is now?
    Dr. Horton. Well, our understanding is that, you know, as 
we look back at sort of the deep paleo climate, especially 
times when the planet was a little bit warmer, it--a couple 
things appear clear. One, sensitivity--temperature sensitivity 
to CO<INF>2</INF> appears to be higher than it might seem if we 
just looked at the climate models of today. And furthermore, 
sea-level rise sensitivity over long timescales appears to be 
very sensitive to even, say, 1 degree of global warming. So I 
think consistent with your point, when we look at deeper 
history, we can find times when it was a degree or two warmer 
maybe, sea levels were tens of feet higher in some cases. And 
likewise, when it was a little bit cooler, times when sea level 
was far lower, not a little lower. So that suggests some of 
these kinds of powerful positive feedbacks.
    Mr. Casten. So if we were to look at the--you know, the 
empirical data that we have and recognizing that the climate 
models get better and better but are still models, the--what is 
a reasonable assumption to make about where we might 
equilibrate on an empirical basis at current CO<INF>2</INF> 
levels with respect to both temperature and sea levels?
    Dr. Horton. So I guess to be clear, equilibration we mean 
over the long timescale, multi-centuries, maybe even out to 
1,000 years potentially. Those numbers I think are 
disturbingly, disturbingly high. I mean, one key question is 
what carbon dioxide levels, concentrations would we assume as 
the equilibration? I mean, even if we could somehow turn off 
greenhouse gas emissions tomorrow, not reduce emissions but 
turn them off, we'd still be stuck with greenhouse gas 
concentrations close to the levels they're at now for decades 
to centuries. So even without future emissions, you know, as 
we're starting to get out into multiple centuries out, you see 
continued large amounts of sea-level rise. But of course we 
need to not have those greenhouse gas emissions so that we 
avert the risk of some of these tail responses, rapid change in 
the ice sheet----
    Mr. Casten. So----
    Dr. Horton [continuing]. But we don't know exactly where 
those thresholds are.
    Mr. Casten. So when you talk about being--having, you know, 
potential risk of 8 feet of sea-level rise, am I understanding 
you correctly to say that it actually could be higher than that 
if we--if we're sitting at current sea levels and saying if we 
look at the historical record, where were those sea levels in 
prior periods?
    Dr. Horton. It depends on the timescale. In my personal 
opinion sort of worst-case scenario for the year 2100 might be 
about 8 feet. I can't say if it's a low--a little lower or a 
little higher. That is not the most likely outcome. That's a 
low probability but extremely high-consequence outcome should 
it happen for society. So my personal opinion and also the 
opinion of the last National Climate Assessment is that 8 feet 
by 2100 is about the worst-case scenario with big uncertainties 
on both sides. There's much less uncertainty in that sort of 
lower end, 1-foot level that I highlighted and showed how even 
that would have such a big impact on coastal flooding.
    Mr. Casten. And does the 8 feet assume that we actually 
take meaningful efforts to slow CO<INF>2</INF> now or does that 
assume a business case as usual?
    Dr. Horton. For the most part, it assumes continued 
greenhouse gas emissions at a relatively high level. The RCP 
(representative concentration pathway) 8.5 scenario, if you're 
familiar with that, high greenhouse gas emissions, but 
especially as those concentrations get up higher and higher, we 
run the risk that the ice sheets could give up a lot of ice 
even if we then were to reduce our emissions. But for the most 
part those 8-foot type scenarios do assume continued high 
increases in greenhouse gases.
    Mr. Casten. OK. My final question, and, Dr. Cooley, you may 
have some thoughts on this as well. And I'm leaving this 
hearing to go question Jerome Powell about our--among other 
things, our housing policy. Talk to me about what housing in 
the United States looks like over the realm of 30-year 
mortgages in a world with 3- to 8-foot-level sea-level rise.
    Dr. Horton. So talk about sort of unanswerable questions, 
but I think the key point I'd say there is, is it really safe 
to assume that property values don't start to drop before the 
water arrives? You know, if people are sort of waiting on this 
assumption that we have enough time until the water actually 
gets there, given what we've been talking about how we're sort 
of locked into additional sea-level rise, you know, that's an 
assumption that could be questioned. And I think, you know, I 
can't tell you exactly when, but towards your point, I think 
there are a lot of assets potentially at risk, whether it's 
homes, whether it's the ability to fund--underwrite certain 
types of infrastructure. And if people start to move away from 
some of these communities, who gets left behind? What happens 
to the tax bases there? We're really opening Pandora's box the 
further we increase greenhouse gas emissions.
    Mr. Casten. Thank you.
    Chairwoman Fletcher. Thank you. Thank you. The Chair will 
now recognize Mr. Weber for 5 minutes.
    Mr. Weber. Thank you, ma'am. Dr. Frazer, south Texas has 
some of the best fishing in the world. Pardon me. I was 
listening to your discussion with Dr. Babin, and you talked 
about getting more data to exploit more fishes. I thought that 
was an interesting choice of words, exploit. How about enjoy? 
Would that be better?
    Dr. Frazer. Either one would work.
    Mr. Weber. OK. Well, I'd like to request unanimous consent 
to change that word in the record. I--no, I just want to make 
sure that we have a lot of good fishing and that we do enjoy 
those, and we do protect those fisheries.
    Dr. Frazer. Can I explain that further? Would that be all 
right?
    Mr. Weber. I'm dying to hear.
    Dr. Frazer. OK. So what happens is when we do a stock 
assessment, there's some uncertainty surrounding that 
assessment. And increased data collection allows us to increase 
the certainty, right? And when we increase the certainty, it's 
possible that we can adjust the quotas such that you can 
actually harvest or enjoy more fish. And so it's a case where 
increased data collection or an investment yield a positive 
economic benefit.
    Mr. Weber. I get it. That's the most egregious word you 
could use to encourage that data collection. We're all adults 
here. And that's fine.
    But I have a question for all the witnesses. I'm from the 
Gulf Coast of Texas. Galveston and Freeport, Texas are both 
cities in my district with economic ties to shipping 
industries. The ports located there are important to both our 
local and national economy. We move 95 percent of the Nation's 
LNG (liquified natural gas). We produce 65 percent of the 
Nation's jet fuel, 20 percent of the Nation's gasoline east of 
the Rockies. And that doesn't include the Port of Houston. So 
we're a huge energy district.
    Now, some of my colleagues like the gentleman to my right, 
Mr. Posey in Florida, face a different challenge in adapting to 
this rise when compared to the ports and the tributaries I 
represent in some of our--in our areas, some of our district. 
Ports would actually benefit from increased water levels.
    So I guess my question to each of the witnesses is, how 
could a more localized approach to mitigation help protect our 
economy and better prepare individual communities? Should there 
be a Federal role in helping communities prepare and address 
these issues, and if so, what is it? How can we better address 
local communities should there be a Federal role in doing this? 
And if so, what is it? And Dr. Cooley, I'll start with you.
    Dr. Cooley. Well, I think we know beyond a shadow of a 
doubt that effects of climate change are regionally variable. 
And so there's no one-size-fits-all solution. As you noted, 
your region is going to have a different set of needs than 
Congressman Posey's district. There are best practices, 
however, that emerge from handling a particular issue, adapting 
to a particular issue, type of issue, for example. For example, 
we've learned quite a lot from the example of the shellfish 
growers in the Pacific Northwest. Those growers are now sharing 
their knowledge with growers in Maine, on the Gulf Coast so 
that American aquaculture can thrive and grow with the benefit 
of foresight. So I think that's one thing the Federal 
Government can absolutely facilitate.
    Mr. Weber. Thank you for the short answer. Dr. Horton, 
you've got a hard act to follow.
    Dr. Horton. Yes, I think a blend of scales, as we heard. 
Each community is going to have unique solutions. But 
similarly, some solutions are going to need to operate at 
scales far beyond what a local community could afford, so I 
think we do need consistent policies in that regard. We also 
just more practically need to make sure that different 
adaptation strategies across, say, different agencies or 
different communities aren't operating at cross purposes, 
right? The sort of superficial example would be if one 
community, you know, builds a seawall, does that increase the 
flooding for the nearby community? That's sort of an 
oversimplified example, but I think it's emblematic of why we 
need coordination----
    Mr. Weber. Let's jump to Dr. Frazer. He seems to be the 
fishing expert except for his one faux pas of exploit. And that 
would be--oystering is huge in my district, so CO<INF>2</INF> 
levels--and I read some of the testimony on the Japanese 
oysters that were brought over and how they've suffered some 
setbacks and stuff. So, Dr. Frazer, for you, for my Gulf Coast 
district in Texas, what needs to be specifically aimed at the 
Gulf Coast there?
    Dr. Frazer. So I'm going to say that the Federal Government 
could invest in the science that's going to allow us to take 
some of these global-scale models and be able to downscale them 
so that we can make predictions about specific regional areas 
like yours. Those predictions would allow us perhaps to develop 
the infrastructure that we need to deal with increased 
flooding, for example, or other storm-related events.
    Mr. Weber. Now, is it Pilaro? Is that how you say that? I'm 
a little over time, but you've got 30 seconds with the 
indulgence of the Chair, thank you.
    Chairwoman Fletcher. Without objection.
    Ms. Pilaro. Well, Texas oysters are great. We'd like to 
have them around for a long time because I think with anything, 
diversity in the market is wonderful. And the----
    Mr. Weber. You can stop right there, you know.
    Ms. Pilaro. I think I will. I'll yield the rest of my time. 
Thank you.
    Mr. Weber. No, go ahead and say the rest of what you were 
going to say.
    Ms. Pilaro. I think, and as Dr. Cooley said, some of the 
lessons learned from how shellfish are responding to these 
changes in the Northwest is applicable to what you might be 
seeing in Texas. And as people are seeing something that's 
different than what they've experienced, they should be 
encouraged to ask more questions to a broader audience because 
it might be just the variability of something localized or it 
might be something grander with some oceanographic element 
that's happening. So I think it's really important to look 
carefully and ask lots of questions about what might be 
happening there.
    Mr. Weber. Thank you, ma'am. Thank you, Madam Chair.
    Chairwoman Fletcher. Thank you, Mr. Weber.
    I will now recognize Mr. Posey for 5 minutes.
    Mr. Posey. Thank you, Madam Chair. And I want to thank the 
Ranking Member and the Chair for inviting me to participate 
here today.
    I live upon the Atlantic shores of the Florida peninsula. 
My constituents understand in a very deep way the economic and 
environmental importance of our oceans. We also have an 
estuary. It's one of those special places, as you all know, 
where the rivers meet the seas. And ours is named the Indian 
River Lagoon. And it has been identified as the most diverse 
estuary in the country. This is one of the important reasons 
that I co-founded a congressional Estuary Caucus with 
Chairwoman Bonamici, and we have re-chartered a caucus again 
for this session.
    I also want to thank the panel obviously for showing up and 
say a special hello to Dr. Frazer from our University of 
Florida.
    In addition, I want to acknowledge the work of the Florida 
Institute of Technology (FIT) on the ocean and estuary issues, 
and I have received a statement from Dr. Robert Weaver, 
Director of Indian River Lagoon research at FIT on matters 
we're discussing today, and I ask unanimous consent to that 
entered into the record.
    Chairwoman Fletcher. Without objection.
    Mr. Posey. Thank you. I'm also proud to be a co-sponsor of 
the National Estuary Acidification Research (NEAR) Act. The 
bill has the objective of focusing acidification research on 
the impacts of our estuaries as well.
    I'm also pleased to be a co-sponsor of the Coastal and 
Ocean Acidification Stressors and Threats Research Act, and you 
all are familiar with that as well. I won't describe that for 
the record.
    I just make those points leading up to the questions that 
are very vital to all of us in this Committee and everyone--
single one of my constituents, and that is how we solve the 
problems that we have. And, you know, first and foremost, we 
talk about our estuary, and I've always said that the answer is 
very simple as two steps. One, stop putting bad stuff in it; 
and two, start removing the bad stuff that is already there. 
And a lot of people are offended by that, but that's the top 
line.
    It only gets confusing when you start delving into the 
details of how to do that. There are so many different options 
to do it, and it's one of those cases where it seems everybody 
in the room knows how to make a baby stop crying except the 
person holding it. And it's very hard to get a consensus on the 
order and the way to do it. There are so many variable 
solutions, and I'm guessing there's over 100. We could probably 
list 100 different solutions. And I just wonder if there's ever 
been any research that would quantify all the different 
potential solutions for cleaning it up and, you know, the cost 
roughly per the benefit or the amount of clean water in each of 
those.
    If any of you are aware of any research on that or a 
source, I would really like to have your comments on it 
generally speaking. Start with Dr. Cooley.
    Dr. Cooley. Thank you. And thank you for your leadership on 
the NEAR Act as well. That is--that solution--or assessment of 
the solutions that we have is critically needed. I--having been 
participating in the National Climate Assessment, I'm a big 
believer in the process of scientific assessment where all of 
the information is gathered and assessed as one to look at 
risks and likelihoods. We have much fewer research studies 
looking at the impacts of solutions partly because they take a 
long time to apply----
    Mr. Posey. Yes.
    Dr. Cooley [continuing]. And then even longer to measure 
how well they're doing. But I think that is a key knowledge gap 
that this Committee can turn to and begin to address.
    Dr. Horton. Very quickly, I'd second that. Evaluating 
adaptation strategies but all--in the context of a changing 
climate, but also the nuts and bolts of implementation, right, 
working with the existing agencies, existing funding cycles, 
bringing all that together to come up with solutions that work 
for all.
    Mr. Posey. Dr. Frazer?
    Dr. Frazer. Thank you. I would agree with you. The problem 
is complex, right, and there are certainly lots of issues that 
we have to consider simultaneously. With regard to the issue in 
your own backyard, I would point you to the TMDL process and 
what that is is the total maximum daily loads, and that 
incorporates input from all of the stakeholders and people that 
might be involved in the way to identify what are the sources 
of pollutants into the estuary and how can they collectively 
reduce those inputs.
    Ms. Pilaro. I agree we need to be working toward a 
solution, and in the process of doing that, we need to really 
keep this communication and collaboration open and engaged and 
robust. We've learned quite a bit from our experience in the 
Northwest. We have valuable information to exchange, and one of 
the things that is happening that I think is most important, 
and perhaps most exciting, is that we've got nonscientists 
thinking about science and we've got nonfarmers thinking about 
farming. In that, there is a wonderful opportunity for all of 
us.
    Mr. Posey. Right. Another moment? You know----
    Chairwoman Fletcher. Sure.
    Mr. Posey [continuing]. If somewhere there could just be 
just, say, given a certain level of pollution, you know, or 
certain measurements that you've taken, and here is a list of 
every single thing from oyster beds to oxygenating to on down 
the list, and then, you know, here's the cost of cleaning up 10 
gallons of that water with this method and that method just as 
a baseline so that, you know, there's just not such a food 
fight over evaluating the different methods, that somewhere 
there's a legitimate method of determining an economic return 
or priority, which of these is most effective.
    So anyway, I hope somebody will start that research 
sometime. I'd be glad to help you pursue it and beat on doors 
and raise money or whatever it takes. Thank you.
    Chairwoman Fletcher. Thank you, Mr. Posey.
    Mr. Posey. Thank you, Madam Chair.
    Chairwoman Fletcher. I'll now recognize Mr. Beyer for 5 
minutes.
    Mr. Beyer. Madam Chair, thank you very much. Let me just 
begin. Since entering Congress, I've been working with Senator 
Sheldon Whitehouse from Rhode Island on building up our ocean 
resilience capacity. Following my dear friend, Congresswoman 
Suzanne Bonamici, who's been leading ocean acidification for 
years and years, the concern about it. And we've been working 
both through the Regional Coastal Resilience Grants and with 
the National Ocean and Coastal Security Fund, which have now 
been combined into the National Coastal Resilience Fund. It's 
obvious with climate change we need much more resilient 
communities with increasing storms, incessant flooding worsened 
by continued sea-level rise. I think Northrop Grumman has a 
chart that shows Norfolk and Portsmouth, Virginia will be 
underwater 50 percent of the year by 2050.
    This means ensuring that our fisheries are healthy, that 
we're adapting as those fisheries adapt to changing ocean 
conditions, and it certainly means taking advantage of the 
offshore wind potentials, which Virginia is moving forward on 
right now.
    Dr. Cooley, the Washington Post recently reported that the 
White House is planning to create its own panel to, quote, 
``reassess the government's analysis of climate science and 
counter conclusions that the continued burning of fossil fuels 
is harming the planet.'' Apparently, the President had not read 
the Fourth National Climate Assessment before it came out.
    And with Dr. Horton, you are contributing authors of 
previous National Climate Assessments. How much concern do you 
have that Dr. Professor William Happer is going to lead this, 
one of the very few scientists who believes that most of the 
warming is due to national--natural causes, that he disagrees 
with the scientific consensus that--he wrote a paper called, 
``In Defense of Carbon Dioxide,'' that it's a boon to planet 
life.
    Dr. Cooley. Well, what's interesting about the National 
Climate Assessment is that it qualifies as a federally defined 
highly influential scientific assessment. And so, as such, it 
is required to go through a thorough review process. And it 
needs to meet the standards of the Information Quality Act. 
These rules have been in place for nearly 20 years to ensure 
scientific accuracy, and so really review and assessment--
review of this assessment has been baked in all throughout its 
creation. There were stakeholder engagement conversations, 
there were expert reviewers at every step, there were Federal 
agencies reviewing this report. And so really any reassessment 
of this report with a small panel is bound to be narrower than 
what it's been through already.
    And, you know, I think it's just--it's not going to be as 
transparent because we know that process is not subject to the 
same reporting rules that the NCA has already been subject to.
    Mr. Beyer. Thank you very much. Dr. Horton. In Dr. Cooley's 
testimony, she wrote something I had not really focused on 
before, that the oxygen loss from the ocean will affect the 
global nitrogen cycle and that since nitrous oxide production 
is actually a worse greenhouse gas than carbon dioxide, a lot 
of the predictions we've been making we're underestimating. And 
this ties in with your comment about tipping points, about 
something James Hansen has warned us about for years and years 
at NASA. Can you talk about what some of the surprises are?
    And I say this having just come back from the Northern 
Triangle of Guatemala, Honduras, El Salvador where they say one 
of the big reasons why they're moving from Guatemala to our 
southern border is because of the extreme drought, extreme 
heat, and climate change, one of those surprises.
    Dr. Horton. Absolutely right. I think there are really 
three types of surprises. There's climate change happening 
faster than we thought, right, so a greater sensitivity to 
greenhouse gases than we thought. Then there's society being 
more vulnerable to a given amount of warming than we thought, 
which you just alluded to. And then hopefully maybe some 
potential for surprises where we as a society move quickly to 
deal with this problem.
    In terms of physical hazards, some of the tipping points 
that are getting so much attention, marine ice cliff 
instability, this idea that perhaps paradoxically as you move 
inland in parts of Antarctica the land actually slopes downward 
due to the incredible weight of all that accumulated ice. If 
you start that process of water beginning to make its way down 
due to warming and melting, over long timescales it can be a 
runaway. That's one tipping point.
    Arctic sea ice, we've lost more than 50 percent of the 
volume of late summer sea ice in the last 35 years or so, 
another possible tipping point because there's a feedback 
there, right, where you remove that white surface, dark surface 
that absorbs more sunlight and causes more warming. Those are 
just a couple of them that we worry about.
    But I like how you highlighted the sort of impact side, 
too. You know, what if we're underestimating how sensitive our 
crops might be to real extreme temperatures, our vulnerable 
populations to combinations of heat and humidity, the potential 
for conflict around the world as sea levels rise. Could we lose 
control of this narrative, the ability to even deal with the 
problem in a collective way? That's another risk the further we 
push the system I think.
    There are also these possibilities for tipping points on 
the solution side, too. I think, you know, we have to keep hope 
because we can't rule out the extent to which, for example, 
young people may really sort of rise up and demand that their 
institutions address these hazards. And they pick the companies 
they want to work for ultimately, the businesses they want to 
invest their money in. They may be looking to see which 
companies are disclosing their vulnerability to the risks and 
the extent to which they are contributing to some of these 
problems, too.
    Mr. Beyer. Great. Thank you very much.
    Madam Chair, I yield back.
    Chairwoman Fletcher. Thank you, Mr. Beyer.
    And before we bring the hearing to a close, I want to thank 
all of my colleagues for their questions, their thoughtful 
questions, and especially Ranking Member Marshall for his 
opening the hearing with our shared value that we all want to 
leave the world better than we found it. And I think we all 
agree on that, and we have a lot of work ahead of us.
    So I appreciate the witnesses coming today to testify 
before the Committee and also for submitting their written 
testimony.
    The record will remain open for 2 weeks for additional 
statements from the Members and for any additional questions 
the Committee may ask of the witnesses.
    So I thank you all for your time here today, for your 
valuable contributions and look forward to working with the 
entire Committee and with you as we move forward. The witnesses 
are excused, and the hearing is now adjourned.
    [Whereupon, at 11:41 a.m., the Subcommittee was adjourned.]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
